Audit Report

Office of Justice Programs Grants Awarded to the Eastern Band of         Cherokee Indians  Grant Numbers 1997-WI-VX-0028, 2000-TY-FX-0030, and 2002-TY-FX-0069, Cherokee, North Carolina

Audit Report No. GR-40-05-004


January 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of U.S. Department of Justice,  Office of Justice Programs grants, including supplements, awarded to the Eastern Band of Cherokee Indians (EBCI) headquartered in Cherokee, North Carolina.  The grants included a Services, Training, Officers, and Prosecutors (STOP) Violence Against Indian Women grant with three supplements and two Tribal Youth grants.  The purpose of the grants was to:  1) assist the tribal justice system in responding to violence against Indian women, and 2) prevent juvenile delinquency and promote the mental health of tribal youth. 
   
We tested the EBCIs accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants.  As of  July 23, 2004, the EBCI had been reimbursed $1,237,580 of the $1,394,634 grant funds awarded. 

We found deficiencies in the areas of reporting, grant drawdowns, budget management and control, matching costs, expenditures, and monitoring of subgrantees.  As a result of these deficiencies, we questioned $109,457, or 7.8 percent, of the total grant funds awarded.1    Specifically, we determined that the EBCI: 

did not submit, or did not submit timely, many financial status reports and progress reports; 

	claimed and was reimbursed for more grant costs than were supported by the accounting records;

	did not adequately manage the grant budgets;

	did not provide the required matching share of grant costs from tribal funds;

	claimed and was reimbursed unallowable and unsupported costs; and

	did not adequately monitor subgrantees and grant program activities.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.




Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.